                    NATIONAL SCIENCE FOUNDATIL-J
                      WASHINGTON, D.C. 20550




    Office of
Inspector General



MEMORANDUM


                                                             Section
                                         -- .-- - - -- - -...- .-. . .. .           . ....,
                                                                            . .- ....         - ..

 SUBJECT: Zero
       TO:   Case No. I93090043




account located in Washington, D.C.
On September 30, 1993, I phoned-                              6,and
asked if the transactions in the accoun w      reviewed durin
       and if the transactions related to th
         an auditor on the project, stated
        ions and they were reasonable and
        stated that the account was opened in the name o
          their review revealed no
account; only NSF funds were used in the account; and all
transactions related to the NSF grants.       The grants were to
establish an information center and coordination point between
government agencies for ecological studies.         Therefore, the
Washington office could be related to the grants.
Because there are no apparent misuse of NSF funds through the
personal account, this case is hereby classified as a Zero File.
